   August 4, 2006




Acquisition
Allegations Concerning
Mismanagement of the Aerial
Targets Program (D-2006-106)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CTEIP                 Central Test and Evaluation Investment Program
GRDCS                 Gulf Range Drone Control System
MSTCS                 Multi-Service Target Control System
               Department of Defense Office of Inspector General
Report No. D-2006-106                                                       August 4, 2006
  (Project No. D2005-D000AB-0199.000)

                    Allegations Concerning Mismanagement
                         of the Aerial Targets Program

                                 Executive Summary

Who Should Read This Report and Why? Air Force acquisition and flight test
officials affiliated with the Gulf Range Drone Control System Program and the DoD test
flight community should read this report. The report addresses allegations to the Defense
Hotline concerning mismanagement of the Aerial Targets Program.

Background. We performed the audit in response to allegations concerning waste and
mismanagement by the Air Force Aerial Targets Systems Program Office. The Hotline
allegations were submitted in three letters by an anonymous complainant and addressed
concerns about the lack of participation and support by the Air Force Aerial Targets
Systems Program Office for the Multi-Service Target Control System Program.
Appendix B shows the six primary areas of concern that were identified in the three
letters and Appendix C shows the audit response to those concerns.

The Air Force Aerial Targets Systems Program Office provides realistic aircraft
scenarios using targets and analyzing the targets’ control, launch, and recovery. To track
targets, the Air Force Aerial Targets Systems Program Office uses the Gulf Range Drone
Control System, which has been in operation since the mid-1980s, to launch and control
drones over the Gulf of Mexico test range. The Gulf Range Drone Control System
evaluates the effectiveness of a total weapon system against aerial targets representing
threats. The Air Force Aerial Targets Systems Program Office uses the Gulf Range
Drone Control System with full-scale and subscale aerial targets. The QF-4 Full-scale
Aerial Target, which is a drone converted from an F-4 aircraft, is a legacy system that the
Air Force Aerial Targets Systems Program Office plans to replace. The Air Force
Subscale Aerial Target is in development and will replace legacy subscale targets.

The Multi-Service Target Control System Program Office is developing the Multi-
Service Target Control System, which might replace the target control segment of the
Gulf Range Drone Control System. The Multi-Service Target Control System provides
single and multiple target capability within local or over-the-horizon target areas, using
new or modified control consoles that may be fixed, mobile, and transportable. The
Multi-Service Target Control System would correct existing shortfalls in over-the-
horizon operations, data encryption, datalink frequency, and accuracy for Army, Navy,
and Air Force target control systems.

The Joint Tactical Radio System is a DoD Program that will coordinate and integrate
military communications and move away from using single function legacy systems to
using systems that are interoperable across Joint operations. The Air Force Subscale
Aerial Target and the Multi-Service Target Control System potentially duplicate
communication functions of the Joint Tactical Radio System. In 1998, the Assistant
Secretary of Defense for Networks and Information Integration, formerly the Assistant
Secretary of Defense, Command, Control, Communications, and Intelligence, instituted a
moratorium and issued policy that required the Services to stop developing and acquiring
radio systems that were not part of the Joint Tactical Radio System infrastructure. The
policy required new radio systems and improvements to existing systems be reviewed to
assess duplication.

Results. We substantiated two of six areas of concern in the allegation letters. We did
not substantiate the other four areas of concern. (See Appendix B for details on the six
areas of concern and Appendix C for the audit response on the areas.) We substantiated
the allegation that the Air Force Aerial Targets Systems Program Office experienced
interference while testing targets using the Gulf Range Drone Control System. As a
result, the Air Force Aerial Targets Systems Program Office could be vulnerable to
interference until the system is replaced. We recommend that the Air Combat Command
mitigate the risk of using the frequency for aerial targets testing and accelerate milestones
for the replacement system. (See finding A for the detailed recommendations.)

We also substantiated that the Air Force Acquisition Executive had not reported new
systems, including the Air Force Subscale Aerial Target and the Multi-Service Target
Control System Program, to the Assistant Secretary of Defense for Networks and
Information Integration for the Joint Tactical Radio System. As a result, the Assistant
Secretary will not have an accurate inventory of Joint Tactical Radio System-related
systems within DoD. We recommend that the Air Force Acquisition Executive report the
systems as required. (See finding B for the detailed recommendations.)

Management Comments and Audit Response. The Air Force nonconcurred with
Recommendation A. to move the Gulf Range Drone Control System to a more secure
frequency and provided conflicting accounts about the type of frequency used.
Therefore, we revised Finding A and the associated recommendations to focus on the
primary concern that the Air Force experienced interference during aerial targets testing
because of the frequency it uses with the Gulf Range Drone Control System. We
recommend that the Air Force mitigate the risks of using the frequency and accelerate the
implementation schedule for the replacement system for the Gulf Range Drone Control
System. The Air Force partially concurred with Recommendation B. and will report the
Air Force Subscale Aerial Target to the Joint Tactical Radio System Program; however,
the Air Force will not report Multi-Service Target Control System Program because it
believes that Army is the lead for the program. We confirmed that the program office is
still within the Air Force, and therefore the Air Force must report it. As a result of
management comments, we revised Recommendation B.2. to require the Air Force to
follow up on the guidance for reporting requirements during the suspension period. A
discussion of the management comments is in the Finding section of the report and the
complete text is in the Management Comments section. Therefore, we request that the
Air Force comment on the final report by September 5, 2006.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Findings
     A. Radio Frequency Interference During Targets Testing             3
     B. Joint Tactical Radio System Reporting                           6

Appendixes
     A. Scope and Methodology                                           10
         Scope Limitation                                               10
         Prior Coverage                                                 10
     B. Analysis of the Allegation Letters                              11
     C. Audit Response to the Allegations                               13
     D. Report Distribution                                             17

Management Comments
     Office of the Assistant Secretary of the Air Force (Acquisition)   19
Background
           We performed the audit in response to allegations to the Defense Hotline
           concerning mismanagement of the Aerial Targets Program. The allegations were
           submitted by an anonymous complainant in three letters about the Air Force
           Aerial Targets Systems Program Office lack of participation and support for the
           Multi-Service Target Control System (MSTCS) Program. Appendix B identifies
           the six primary areas of concern that were identified in the three letters and
           Appendix C is the audit response to the areas of concern.

           The Air Force Aerial Targets Systems Program Office. The Air Force Aerial
           Targets Systems Program Office provides realistic aircraft scenarios using targets
           and analyzing the targets’ control, launch, and recovery. To track targets, the Air
           Force Aerial Targets Systems Program Office uses the Gulf Range Drone Control
           System (GRDCS), which has been in operation since the mid-1980s, to launch
           and control drones over the Gulf of Mexico test range. The GRDCS evaluates the
           effectiveness of a total weapon system against aerial targets representing threats.
           Although the GRDCS controls targets from remote locations, it is not merely a
           target control system; it is also a test range instrumentation system that observes,
           measures, and controls the three main capabilities: target control, missile
           tracking, and shooter tracking. Also, the GRDCS is able to track and control four
           drones, track four shooter aircraft using the GRDCS shooter pods, and terminate
           four missiles. The GRDCS uses a multilateration1 technique to track airborne
           tests. The Air Force is considering the use of the Global Positioning System for
           tracking targets in the future. The Air Force Aerial Targets Systems Program
           Office uses GRDCS with full-scale and subscale aerial targets. The QF-4 Full-
           scale Aerial Target (QF-4 target), which is converted from the F-4 aircraft, is a
           legacy system that the Air Force Aerial Targets Systems Program Office sees a
           need to replace. The Air Force Subscale Aerial Target is a more recent
           development and will replace legacy subscale targets.

           The MSTCS Program. The MSTCS Program, which is an Air Force lead
           program, might replace the target control segment of the GRDCS. The MSTCS
           provides single and multiple target capability within local or over-the-horizon
           target areas, using new or modified control consoles that may be fixed, mobile,
           and transportable. The MSTCS would correct existing shortfalls in over-the-
           horizon operations, data encryption, datalink frequency, and accuracy for Army,
           Navy, and Air Force target control systems. The MSTCS Program receives
           Central Test and Evaluation Investment Program (CTEIP) funding for MSTCS
           because the system will operate in a Joint environment. Public Law No. 101-511,
           the Department of Defense Appropriations Act, November 5, 1990, established
           funding for performance and joint developmental testing and evaluation. The
           language in Senate Report No. 101-521, 101st Cong. 2nd Session (1991), referred
           to the program as the Central Test and Evaluation Investment Program and sought
           to improve the coordination and planning for investments in test and evaluation
           facilities. The approach allows the CTEIP to focus on the highest priority Joint
           test requirements and capabilities and eliminate unwarranted duplication of effort.

1
    Multilateration is a method of tracking an object by measuring its distance from at least three known
    locations. The GRDCS uses ground stations and airborne platforms to measure these distances for tests
    flown over the Gulf of Mexico.



                                                      1
    To be included in the CTEIP, a project must be multi-Service, developmental, and
    not be used to procure the developed test asset or capability.

    Joint Tactical Radio System. The Joint Tactical Radio System is a DoD
    program that will coordinate and integrate military communications and move
    from using single function legacy systems to using systems that are interoperable
    across Joint operations. Components of the Air Force Subscale Aerial Target and
    the MSTCS potentially duplicate functions of the Joint Tactical Radio System. In
    August 1998, the Assistant Secretary of Defense for Networks and Information
    Integration, formerly the Assistant Secretary of Defense, Command, Control,
    Communications, and Intelligence, instituted a moratorium and issued policy that
    required the Services to stop developing and acquiring radio systems that are not
    part of the Joint Tactical Radio System infrastructure. The policy required new
    radio systems and improvements to existing radio systems to be reviewed to
    assess duplication. The moratorium was not intended to disrupt equipment
    production scheduled for platform installation, but prohibited product
    improvements or modifications that duplicated Joint Tactical Radio System
    capabilities. In August 2001, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics reemphasized the moratorium and included modified
    legacy radio systems under the moratorium.


Objectives
    The overall objective was to determine whether the allegations concerning
    mismanagement of the Aerial Targets Program have merit. See Appendix A for a
    discussion of the scope and methodology, Appendix B for an analysis of the
    allegations, and Appendix C for the audit response to the allegations.




                                        2
            A. Radio Frequency Interference During
               Targets Testing
            The Air Force experienced radio frequency interference while it was using
            the GRDCS to test aerial targets because the frequency spectrum that the
            Air Force Aerial Targets Systems Program Office uses is subject to
            interference. The GRDCS is not scheduled for replacement until 2012,
            therefore, the Air Force Aerial Targets Systems Program Office could be
            vulnerable to continued interference during aerial targets testing until the
            Air Combat Command replaces GRDCS.

Allegation on Radio Frequency
     Two of the three allegation letters discussed the use of the commercial frequency
     and stated that the Air Force Aerial Targets Systems Program Office should
     switch from the commercial frequency because of interference and because the
     Air Force Frequency Management Office directed the switch. We substantiated
     the allegation of interference; however, we determined that the Air Force
     Frequency Management Office does not have the authority to require the Air
     Force Aerial Targets Systems Program Office to switch from the commercial
     frequency. Although the Air Force Aerial Targets Systems Program Office
     experienced interference with the frequency because commercial parties use the
     same frequency, Air Force Aerial Targets Systems Program Office personnel said
     that the program does not have the funding to switch frequencies. Appendix C
     discusses in more detail the commercial frequency that the Air Force Aerial
     Targets Systems Program Office uses for targets testing.


Targets Testing
     Section 2366, title 10, United States Code, requires that all new or improved
     weapon systems demonstrate lethality and survivability before they enter the
     production phase. Aerial targets are used to demonstrate lethality of weapon
     systems. The Air Force Aerial Targets Systems Program Office uses the GRDCS
     to test weapon systems. The GRDCS operates on a frequency band that is
     susceptible to interference. According to the Air Force, the majority of
     interference resulted from unscheduled or dual scheduled DoD users but the Air
     Force also acknowledged that it has experienced interference from an unknown
     source.

     In November 2005, the Air Combat Command began drafting the Initial
     Capabilities Document for a system that will either replace or upgrade the
     GRDCS. In assessing the threat environment, the Air Combat Command
     recognized that the primary threat for the possible replacement or upgraded
     system was the exploitation of test data to gain an understanding of capabilities
     and vulnerabilities of weapon systems. The Air Combat Command is considering
     its frequency options for the replacement system for GRDCS. Because the Initial
     Capabilities Document indicates that the replacement or upgraded system does



                                         3
    not need to be available until 2012, the Air Force Aerial Targets Systems Program
    Office remains vulnerable to interference when it uses the frequency during
    testing.

    Therefore, until the Air Combat Command replaces GRDCS, it needs to mitigate
    the risk of the continued use of the frequency for aerial targets testing and assess
    the feasibility of accelerating the implementation milestones for the replacement
    system.


Conclusion
    We substantiated the allegation that the Air Force Aerial Targets Systems
    Program Office experienced interference during aerial targets testing with the
    GRDCS. Although the Air Force is replacing or upgrading the GRDCS, the
    immediate concern is that the Air Force will continue to experience interference
    during aerial targets testing. Consequently, the Air Combat Command should
    mitigate the risks associated with the continued use of the frequency during aerial
    targets testing and determine whether it should accelerate the implementation
    schedule for the replacement system for the GRDCS.


Recommendation, Management Comments, and
  Audit Response

    Revised Finding and Recommendations. As a result of management comments
    and additional audit work, we revised finding A and the corresponding
    recommendations to focus on the primary concern that the Air Force experienced
    interference during aerial targets testing because of the frequency it uses with the
    Gulf Range Drone Control System.

    A. We recommend that the Commander, Air Combat Command:

            1. Develop a plan to mitigate the risks association with the continued
    use of the frequency used for the Gulf Range Drone Control System.

           2. Consider accelerating the implementation schedule for the
    replacement system for the Gulf Range Drone Control System.

    Air Force Comments. The Air Force nonconcurred with the recommendation,
    stating that the GRDCS operates on a Government frequency band that allows
    commercial use. Also, the Air Force stated that its license allows limited low-
    power non-Government users, although GRDCS takes precedence. The Air Force
    went on to say that the Federal Communications Commission previously forced
    non-Government users to shut down interfering equipment, and that procedures
    were in place to deconflict the frequency resource. The Air Force also stated that
    the potential disclosure of data was an issue of encryption rather than use of the
    frequency; the Air Force has a waiver for the unencrypted operation of the


                                          4
GRDCS, except for sensitive data that are encrypted and sent by a separate data
link. Air Force stated that it will continue to operate GRDCS as is but will
readdress issues with potential replacement target control systems.

Audit Response. The Air Force nonconcurred with the recommendation to
migrate the GRDCS to a more secure frequency, stating that the frequency used is
a Government frequency. However, the Air Force provided conflicting accounts
on the radio frequency for the GRDCS. Although the Air Force comments state
that the GRDCS operates on a Government frequency that allows commercial
use, the previous director of the Air Force Aerial Targets Systems Program Office
and the DoD Gulf Area Frequency Coordinator both stated that GRDCS operates
on a commercial frequency. Also, the U.S. Frequency Allocations show that the
frequency range includes Government and non-Government users. Regardless of
the type of frequency, the primary concern is that the Air Force experienced
interference while using the frequency during testing. Although the Air Force is
reviewing frequency options for a replacement system for GRDCS, it remains
vulnerable to interference until GRDCS is replaced. Therefore, we request that
the Air Force consider the revised finding and recommendations and provide
comments on the final report.




                                    5
            B. Joint Tactical Radio System
               Reporting
            The Air Force Acquisition Executive did not report radio acquisitions that
            qualify for Joint Tactical Radio System reporting to the Assistant
            Secretary of Defense for Networks and Information Integration because
            the program offices did not know they were required to report the
            acquisitions. As a result, the Assistant Secretary does not have an
            accurate inventory of systems for the Joint Tactical Radio System within
            DoD and duplication of capabilities could occur.

Allegation of Waste
     The Air Force Aerial Targets Systems Program Office modified an existing
     contract to develop a replacement design for components for the QF-4 targets.
     The allegations stated that the parts will replace the same components that the
     MSTCS will replace, and therefore will be a waste of Government funds.
     Further, the allegations stated that the Air Force Aerial Targets Systems Program
     Office ignored a requirement for modified or new radios to be compliant with the
     Joint Tactical Radio System and that the MSTCS Program is exempt from
     compliance. We did not substantiate the allegation of waste for the replacement
     parts. We determined that the replacement parts, which were obtained under a
     contract modification referred to as the Obsolescence Engineering Change
     Proposal, replaced original parts that are no longer available but that are needed
     to convert QF-4 targets for testing. The replacement parts did not improve the
     capability of the original parts and, without the replacement parts, the Air Force
     Aerial Targets Systems Program Office would exhaust its inventory of QF-4
     targets used for testing. The MSTCS Program, if it becomes operational, will not
     be available in time to meet this need. See Appendix C for the further discussion
     on the Obsolescence Engineering Change Proposal.

     In assessing the portion of the allegation related to Joint Tactical Radio System
     compliance, we determined that because the replacement parts did not increase
     capability and were for a legacy system, the parts were exempt from compliance.
     We did, however, determine that since the Air Force Subscale Target System was
     a new system, it should comply with requirements for the Joint Tactical Radio
     System. Also, although the allegations stated that the MSTCS Program was
     exempt from compliance with the Joint Tactical Radio System, we determined
     that it is not exempt unless it has a waiver. Therefore, the Air Force Acquisition
     Executive must report both systems to the Assistant Secretary of Defense for
     Networks and Information Integration because they meet requirements for Joint
     Tactical Radio System compliance. See Appendix C for more details on the Joint
     Tactical Radio System compliance.




                                          6
DoD Radio Reporting Requirements
     In 1998, DoD recognized the need and the benefit of combining the various radio
     acquisition programs that incorporated programmable software technology.
     Therefore, the Assistant Secretary of Defense for Networks and Information
     Integration, issued policy memorandum, “Radio Acquisitions,” August 28, 1998,
     which required Services and Component-unique programs be suspended unless
     the Assistant Secretary of Defense for Networks and Information Integration
     granted approval. The policy required that improvements to existing systems and
     new radio systems be reported to assess duplication with the Joint Tactical Radio
     System. Although the policy was not intended to disrupt equipment production
     scheduled for platform installation, it prohibited the acquisition of product
     improvements or modifications that duplicated planned capabilities of the Joint
     Tactical Radio System.

     In policy memorandum, “Joint Tactical Radio System (JTRS) Defense
     Acquisition Board (DAB) Program Review,” August 2, 2001, the Under Secretary
     of Defense for Acquisition, Technology, and Logistics reemphasized the
     moratorium on the acquisition or modification of radios and required that the
     systems comply with the Joint Tactical Radio System, unless the Component
     Acquisition Executive obtained a waiver. In May 2005, the Assistant Secretary
     of Defense for Networks and Information Integration temporarily suspended the
     Joint Tactical Radio System waiver process. During the suspension, Acquisition
     Executives are required to inform the Assistant Secretary of Defense for
     Networks and Information Integration of legacy procurements using a streamlined
     version of the Joint Tactical Radio System waiver questionnaire.


Air Force Radio Acquisitions
     The Air Force Aerial Targets Systems Program Office purchased replacement
     parts under the Obsolescence Engineering Change Proposal that are needed to
     convert aircraft for the full-scale aerial target. Because the full-scale target is a
     legacy system, the replacement parts are exempt from Joint Tactical Radio
     System reporting. However, the Air Force Aerial Targets Systems Program
     Office purchased the Air Force Subscale Aerial Target to replace legacy subscale
     targets. Because the Air Force Subscale Target System is a new acquisition, it
     must comply with requirements for the Joint Tactical Radio System. Further,
     because the MSTCS Program is also a new acquisition, it must also comply with
     the Joint Tactical Radio System requirements. Therefore, the Air Force
     Acquisition Executive must report both systems to the Assistant Secretary of
     Defense for Networks and Information Integration. In addition, the Air Force
     Acquisition Executive needs to issue guidance to remind program offices of the
     requirement to report Air Force radio acquisitions that qualify for Joint Tactical
     Radio System reporting.




                                           7
Conclusion
    We did not substantiate the allegation that the replacement parts for the
    Obsolescence Engineering Change Proposal were a waste of Government funds
    because they duplicated components of the MSTCS. The replacement parts did
    not improve capabilities of the original parts and were needed to convert the QF-4
    targets. The MSTCS Program, if it becomes operational, will not be available in
    time to meet this need. Also, the replacement parts were exempt from the Joint
    Tactical Radio System reporting because the QF-4 target is a legacy system.

    We substantiated the allegation that new systems, including the Air Force
    Subscale Target System, met reporting requirements for Joint Tactical Radio
    System compliance. Also, although the allegation stated that the MSTCS
    Program was exempt from compliance, we determined that it was not exempt.
    Based on requirements of both policy memorandums, the Air Force Acquisition
    Executive needs to report both systems. In addition, the Air Force Acquisition
    Executive needed to provide program offices guidance on the Joint Tactical Radio
    System reporting requirements.


Recommendation, Management Comments, and
  Audit Response
    Recommendation Revised. As a result of management comments, we revised
    recommendation B.2.

    B. We recommend that the Air Force Acquisition Executive:

           1. Report the Air Force Subscale Target System and the Multi-
    Service Target Control System programs to the Assistant Secretary of
    Defense for Networks and Information Integration to allow assessment of
    duplication with the Joint Tactical Radio System.

           2. In addition to issuing guidance to remind program offices of the
    requirement to report Air Force radio acquisitions that qualify for Joint
    Tactical Radio System reporting, determine whether program offices
    received the guidance and were reporting their programs as required.

    Air Force Comments. The Air Force partially concurred with the
    recommendation and agreed to report the Air Force Subscale Target System by
    August 31, 2006. However, Air Force stated that MSTCS is now an Army-led
    program and should be reported by the Army. The Air Force also provided a
    copy of the guidance provided to Air Force components on the temporary
    suspension of the Joint Tactical Radio System Waiver Process.

    Audit Response. We consider the Air Force comments to be partially
    responsive. The Air Force concurred with the recommendation to report the Air
    Force Subscale Target System and stated that it will report the program by August
    31, 2006. We will consider the action for reporting the Air Force Subscale Target


                                        8
System to be complete pending receipt of documentation showing that the Air
Force reported the program. The Air Force nonconcurred with reporting the
MSTCS Program because it stated that the MSTCS Program is an Army-led
program. However, we verified with the MSTCS Program Office that the
MSTCS Program is still an Air Force program. Until the program management
for MSTCS is officially assigned to the Army, the Air Force remains responsible
for reporting the program.

We commend the Air Force for taking immediate action to address reporting
requirements for Joint Tactical System Radio during the suspension of the waiver
process. Unfortunately, Air Force components either ignored or were unaware of
the guidance to report programs that qualify for the Joint Tactical Radio System.
In addition to issuing guidance, Air Force should also follow up to determine that
the appropriate program offices actually receive and follow the guidance because
the programs that we reviewed had not been reported. Therefore, we request that
the Air Force reconsider its position for the MSTCS Program and comment on
actions it will take to get program offices to report programs that qualify for the
Joint Tactical Radio System.




                                     9
Appendix A. Scope and Methodology
    We performed the audit to examine allegations to the Defense Hotline that the Air
    Force Aerial Targets Systems Program Office wasted Government assets in its
    management of the Aerial Targets Program. Three anonymous letters alleged that
    the Air Force Aerial Targets Systems Program Office wasted funds in issuing
    contract modifications, scheduling MSTCS’ implementation, transition planning,
    cost estimating, frequency management, and complying with DoD policy.

    We reviewed documents dated from July 1983 through May 2005. We reviewed
    the draft Initial Capabilities Document for the GRDCS and the Test Capabilities
    Requirements Document for the MSTCS. We reviewed guidance for the CTEIP.
    We reviewed policy requiring communication systems to be interoperable with
    the Joint Tactical Radio System. We interviewed personnel from the Air Force
    Aerial Targets Systems Program Office, the MSTCS Program Office, the 53rd
    Weapons Evaluation Group, the 96th Communications Group, the Frequency
    Management Office in Florida, and officials in the Office of the Assistant
    Secretary of Defense for Networks and Information Integration, the Office of the
    Assistant Secretary of the Air Force Acquisition, the Air Force Test and
    Evaluation Directorate, the CTEIP Program Office, and the Air Combat
    Command in Virginia. We performed this audit from May 2005 through January
    2006 in accordance with generally accepted government auditing standards. We
    initially started the audit in September 2003 but suspended it because of higher
    priorities pertaining to the Base Realignment and Closure validation.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Weapon System Acquisition high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued one report discussing CTEIP projects. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2004-097, “The Central Test and Evaluation Investment
    Program,” June 30, 2004




                                        10
Appendix B. Analysis of the Allegation Letters
   We performed the audit to review allegations to the Defense Hotline that the Air
   Force Aerial Targets Systems Program Office wasted Government assets in
   administering the Aerial Targets Program. We received three allegation letters
   (dated June 17, 2003, September 30, 2004, and November 14, 2004) from an
   anonymous complainant alleging the waste. We analyzed the three letters and
   identified 24 areas of concern in the three letters. Because the 24 areas of concern
   overlapped, we identified the 6 primary areas of concern as follows:

          1. The Obsolescence Engineering Change Proposal was used to obtain
             parts that duplicate the capabilities of MSTCS.

          2. The Aerial Target Program Office’s implementation schedule for
             MSTCS is too long.

          3. The Aerial Target Program Office’s estimated cost to implement
             MSTCS is overstated.

          4. The Air Force had no transition plan for MSTCS and did not consider
             using Global Positioning System technology for target tracking.

          5. The Air Force Aerial Targets Systems Program Office uses a
             commercial frequency for tracking targets.

          6. The Air Force ignored the Joint Tactical Radio System’s reporting
             requirement for the Obsolescence Engineering Change Proposal, and
             the Air Force Subscale Aerial Target.

   The following table shows the areas we identified in the allegation letters and
   how we assigned them to the 6 primary areas (Appendix C provides further
   discussion of the 6 areas). In some cases, we either paraphrased or made minor
   editorial changes to clarify the meaning. Also, we covered all of the areas during
   the audit but we did not necessarily include the complete discussion if the results
   were covered indirectly by the subject area (see 15, 16, 19, 20, and 21).




                                       11
                 Areas of Concern in the Three Allegation Letters
                                                                                         Primary
                 Hotline Areas of Concern                                  Allegation     Area in
                                                                             Letter     Appendix C

                                                                       1      2    3
1. The Obsolescence Engineering Change Proposal is a waste of          X       X    X       1
    money
2. Consider adding Global Positioning System                           X                    4
3. Aerial Targets uses a commercial frequency that is subject          X            X       5
    to interference
4. The estimated schedule for MSTCS is too long                                     X       2
5. Aerial Targets has no transition plan for MSTCS                                  X       4
6. The estimated cost for MSTCS is overstated                                  X            3
7. Cost for MSTCS is too high                                                  X            3
8. MSTCS does not have to comply with the Joint Tactical                       X            6
    Radio System requirement
9. Aerial Targets ignored the requirement to report the                        X            6
    Obsolescence Engineering Change Proposal and Air Force
    Sub Scale Aerial Target for the Joint Tactical Radio System
10. Not switching from the commercial frequency will cost more                 X            5
     later
11. Air Force Frequency Management Office told Aerial Targets to               X            5
     switch from the commercial frequency
12. Aerial Targets planned to implement MSTCS for the last buy of              X            2
     the QF-4 target
13. 42 months needed to incorporate MSTCS into the Q-4 target                  X            2
14. 42 months needed to incorporate MSTCS into Air Force                       X            2
     Subscale Aerial Target
15. The Navy cost estimate is lower than Aerial Targets’ cost                  X            3*
     estimate
16. Army will use MSTCS, but Aerial Targets will not                           X            4*
17. Aerial Targets needs 4 years to field MSTCS                                X            2
18. Aerial Targets has no justification for the Obsolescence                   X            1
    Engineering Change Proposal
19. Aerial Targets supports the Next Generation Target Control                 X            4*
    System, but not MSTCS*
20. Aerial Targets identified additional test costs for complete               X            3*
    QF-4 full-scale aerial target testing requirements
21. Aerial Targets identified additional testing requirement after             X            3*
    initial testing requirements identified
22. Lack of Air Combat Command support for additional CTEIP                    X            3
    funding
23. No transition plan to use MSTCS at Tyndall Air Force Base                  X            4
24. Lack of Aerial Targets discussion on cost estimates for MSTCS              X            3

  *Coverage of the Hotline issue may not be apparent but is included indirectly.




                                                12
Appendix C. Audit Response to the Allegations
   We received three letters alleging waste and mismanagement in the Aerial Targets
   Program. We analyzed the letters to identify the areas of concern addressed in the
   allegation letters. Although we identified 24 areas in the 3 letters, we determined
   that some had common subject areas. We determined that the 24 areas addressed
   6 primary areas. Appendix B shows how we assessed the 24 areas of concern and
   assigned them to the 6 primary areas. Our discussion of the areas of concern
   follows.

   1. The Obsolescence Engineering Change Proposal was used to obtain parts
   that duplicate the capabilities of MSTCS. The Air Force Aerial Targets
   Systems Program Office modified an existing contract to develop a replacement
   design for components in the QF-4 target. The components will replace the same
   components that the MSTCS will replace, and therefore wastes Government
   funds.

   Audit Response. We did not substantiate this area of concern because the
   modification was needed. We confirmed that the Air Force Aerial Targets
   Systems Program Office did modify an existing contract to develop a replacement
   design for components in one of its test targets, the QF-4 target. However, the
   Air Force Aerial Targets Systems Program Office required the contract
   modification, called the “Obsolescence Engineering Change Proposal,” to
   develop replacement parts that are needed to convert F-4 aircraft into QF-4 targets
   because the original parts are no longer available. The replacement parts perform
   the same functions as the original parts and do not improve the capability of the
   original parts. The Air Force Aerial Targets Systems Program Office provided
   documentation to show that it would exhaust the inventory of the remaining QF-4
   targets without the contract modification. If purchased by the Air Force Aerial
   Targets Systems Program Office, the MSTCS has an estimated development and
   test period of 39 months and will not provide a useful target until early 2009. An
   additional 2 years is required to build a QF-4 target using the MSTCS.
   Consequently, the QF-4 targets would not be available until early 2011 and the
   Air Force Aerial Targets Systems Program Office would have a 2-year gap in
   availability of the QF-4 targets. Although we confirmed that the Air Force Aerial
   Targets Systems Program Office modified a contract for a replacement design for
   components in the QF-4 targets, we determined that the contract modification was
   needed to obtain replacement parts that are no longer available, do not improve
   capability of the original parts, and are needed to support the target testing
   mission.

   2. The Air Force Aerial Targets Systems Program Office implementation
   schedule for MSTCS is too long. The Air Force Aerial Targets Systems
   Program Office is taking too long to field the MSTCS for the QF-4 target and the
   Air Force Subscale Aerial Target.

   Audit Response. We did not substantiate this area of concern because the Air
   Force Aerial Targets Systems Program Office does not control testing or funding
   of the system. The Air Force Aerial Targets Systems Program Office provided an
   estimate of about 39 months of development and testing to use the MSTCS with


                                       13
the QF-4 target. Additional redesign will be needed to use the MSTCS with the
Air Force Subscale Aerial Target. The schedules are not relevant for the Air
Force Aerial Targets Systems Program Office because it does not plan to use the
MSTCS for either target unless and until the system meets mission requirements.
The MSTCS was restructured twice and the reduced scope version of the MSTCS
will not meet the testing requirements of the Air Force Aerial Targets Systems
Program Office to track four targets, four missiles, and four shooters. Also, the
Air Combat Command informed us that they have not provided the Air Force
Aerial Targets Systems Program Office funding to field the MSTCS. Until the
MSTCS meets testing requirements and the Air Combat Command provides
funding, the Air Force Aerial Targets Systems Program Office will not field the
MSTCS.

3. The estimated cost for the Air Force Aerial Targets Systems Program
Office to implement MSTCS is overstated. The Air Force Aerial Targets
Systems Program Office significantly overstated the estimated cost to implement
the MSTCS. Also, the Air Combat Command did not support the MSTCS
Program Office in obtaining additional CTEIP funding.

Audit Response. We did not substantiate this area of concern. The complainant
discusses cost growth that escalated from $50 million to $150 million but did not
provide supporting data to evaluate the basis for the estimates quoted in the
allegation letter. The Air Force Aerial Targets Systems Program Office provided
an estimate of $120.5 million in the FY 2006 budget request that estimated the
cost of scenarios such as switching to the MSTCS, which includes the Global
Positioning System, beginning encryption of data transmission, changing to a
protected frequency, and complying with the Joint Tactical Radio System policy.
We compared the FY 2006 estimate to a June 2003 estimate of $70.9 million.
The reason for the disparity in the two estimates is that the estimates were based
on different assumptions for compliance with the Joint Tactical Radio System and
data encryption. The June 2003 estimate contained no cost data for Joint Tactical
Radio System compliance but the FY 2006 estimate included $29 million. Also,
the June 2003 estimate for data encryption was $8.3 million. This increased to
$19.8 million for the FY 2006 estimate. The combined difference for the two
assumptions is $40.5 million. After deducting Joint Tactical Radio System
compliance and the data encryption costs, the June 2003 estimate was
$62.6 million and the FY 2006 estimate was $71.6 million. Consequently, we
determined that the estimates are within such a narrow range that it would be
difficult to determine whether one is significantly overstated. In addition, the Air
Force Test and Evaluation Directorate, rather than the Air Combat Command, is
the proponent for obtaining additional CTEIP funding.

4. The Air Force Aerial Targets Systems Program Office has no transition
plan for MSTCS and did not consider using Global Positioning System
technology for target tracking. The Air Force Aerial Targets Systems Program
Office did not adequately plan the transition of the MSTCS into the production
phase. The Aerial Targets Program Office has no formal transition plan for the
MSTCS at Tyndall Air Force Base and did not consider adding Global
Positioning System technology for target tracking, which wastes taxpayer dollars.

Audit Response. We did not substantiate the area of concern because the Air
Force Aerial Targets Systems Program Office does not control the testing or


                                     14
funding for the system. According to the Air Force Aerial Targets Systems
Program Office, it will not develop a transition plan for the MSTCS until it is
assured that the MSTCS will perform the testing mission required. Because the
Air Force had not determined whether it will use the system, there is no
established need for a transition plan. Also, the Air Combat Command stated that
it had not provided funding to transition to the MSTCS. Until the Air Force
Aerial Targets Systems Program Office receives funding, it can not transition to
the MSTCS technology. The Initial Capabilities Document that is being
developed states that switching to a Global Positioning System method for
tracking is one of several options being considered.

5. The Air Force Aerial Targets Systems Program Office uses a commercial
frequency for testing targets. The Air Force Aerial Targets Systems Program
Office should switch its testing frequency from the commercial band 915
megahertz frequency spectrum to avoid interference. Also, the Air Force
Frequency Management Office told the Air Force Aerial Targets Systems
Program Office to move from the 915 megahertz frequency band.

Audit Response. We substantiated that the use of the frequency is causing
interference. The Air Force Aerial Targets Systems Program Office uses the
GRDCS, which operates on a 915 megahertz commercial frequency band, and
experiences interference with tests on the frequency because commercial industry
uses the same frequency. However, the Air Force Aerial Targets Systems
Program Office stated that it does not have the funding to switch frequencies.
The Air Combat Command is drafting the Initial Capabilities Document that
includes options for the use of the Global Positioning System for target control.
The draft Initial Capabilities Document contains a comparison of alternative
frequencies, and also contains an analysis of whether the Air Force should switch
to the Global Positioning System for tracking. If the Air Combat Command
establishes requirements for the frequency change, it must also fund the switch.
The Air Force is also considering its options to avoid interference with the
commercial frequency and acknowledged that it has problems with the
915 megahertz frequency. The Air Force Frequency Management Office
recommended that the Air Force Aerial Targets Systems Program Office change
from the 915 megahertz frequency to either a military-only frequency or a
noncommercial frequency. However, the Air Combat Command, not the Air
Force Frequency Management Office, has the authority to direct frequency
change. See the Finding section for a more detailed discussion on the frequency
change.

6. The Air Force ignored the Joint Tactical Radio System reporting
requirement for the Obsolescence Engineering Change Proposal and the Air
Force Subscale Aerial Target. The Air Force Aerial Targets Systems Program
Office ignored the requirement for modified or new radios to be compliant with
the Joint Tactical Radio System. The MSTCS is exempt and does not need to
comply with the Joint Tactical Radio System.

Audit Response. We substantiated that two systems should be reported to reflect
an accurate inventory of radio systems. We determined that the Air Force
Acquisition Executive is required to report the Air Force Subscale Aerial Target
and the MSTCS Programs, based on the Joint Tactical Radio System policy.
Under Secretary of Defense for Acquisition, Technology, and Logistics


                                   15
memorandum, “Joint Tactical Radio System (JTRS) Defense Acquisition Board
(DAB) Program Review,” August 2, 2001, requires the reporting of radio
acquisitions and modifications. The Air Force Aerial Targets Systems Program
Office developed replacements parts for the QF-4 target legacy system under the
Obsolescence Engineering Change Proposal because original parts are no longer
available. The replacement parts did not change the capabilities of the original
parts for the QF-4 target. Further, the replacement parts are for a legacy system
and are not subject to the Joint Tactical Radio System reporting. Conversely, the
Air Force Subscale Aerial Target is for a new acquisition. Therefore, the system
must comply with the Joint Tactical Radio System requirements.

The MSTCS Program Office, which is also developing a new system, stated that
its system was not required to comply with the Joint Tactical Radio System.
Officials at the Office of the Assistant Secretary of Defense for Networks and
Information Integration disagreed. According to the officials, a new or modified
radio must be compliant with the Joint Tactical Radio System policy unless it has
a waiver. Assistant Secretary of Defense for Networks and Information
Integration memorandum, “Joint Tactical Radio System (JTR) Waiver Process,”
November 24, 2004, established procedures for submitting waivers for radio
frequency equipment acquisitions. Although the Assistant Secretary of Defense
for Networks and Information Integration temporarily suspended the waiver
process in May 2005, the requirement for radio acquisitions to comply with the
Joint Tactical Radio System continues. Consequently, the Air Force Acquisition
Executive needs to report the systems for the Air Force Subscale Aerial Target
and the MSTCS Programs. See the Finding section for a discussion on the Joint
Tactical Radio System reporting.




                                    16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Air Combat Command
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          17
Office of the Assistant Secretary of the Air Force
(Acquisition) Comments                             Final Report
                                                        Reference




                                                         Revised




                                                         Deleted




                           19
20
21
22
Team Members
   The Acquisition and Contract Management Directorate, Office of the Deputy
   Inspector General for Auditing of the Department of Defense prepared this report.
   Personnel of the Department of Defense Office of Inspector General who
   contributed to the report are listed below.



   Richard B. Jolliffe
   Bruce A. Burton
   Dianna J. Pearson
   Thomas J. Hilliard
   Timothy Miller
   Celeste McKay
   Kiana Silver
   Jaime A. Bobbio
   Wei K. Chang
   Frank R. Niranjan
   Jacqueline Pugh
